                                                                                                 Of$ce of Inspector General

                                                                                                 U.S. Department of Homeland Security
                                                                                                 Eastern Region
                                                                                                 Office of Disaster Assistance Oversight
                                                                                                 10 Tenth Street, Suite 750
                                                                                                              - 30309
                                                                                                 Atlanta, Georgia

                                                                                                 Homeland
                                                                                                 Security
                                                       November 26,2007

MEMORANDUM FOR:                         Scott Morris, Director

                                                                              ed
                                        FEMA's Florida Long Term Recovery Office
                                        Lake M a p F      D    a


FROM:                                   C. ~ a v i d k i m b l eDirector
                                                                ,                '

                                        Eastern Regional Office

SUBJECT.                                Audit of Hurricane Jeanne Activities
                                        Hillsborough County, Florida
                                        Public Assistance Identification Number:057-99057-00
                                        FEMA Disasters No. 1561 -DR-FL
                                        Report Number DA-08-01

We performed an audit of emergency services and debris removal funds awarded to Hillsborough
County, Florida (county), as a result of Hurricane Jeanne in September 2004. The audit objective
was to determine whether the county accounted for and expended FEMA funds according to federal
regulations and FEMA guidelines.
The county received an award of $16.8 million from the Florida Department of Community Affairs,
a FEMA grantee, for emergency protective measures and debris removal activities. The award
provided FEMA funding for 17 large projects1 and 17 small projects.

We reviewed $16.2 million of costs incurred under 16 large projects. The audit covered the period
September 24,2004 to November 9,2006, during which the county claimed costs of $16,217,497
and received FEMA funds of $14,635,667 (see Exhibit).

We performed the audit under the authority of the Inspector General Act of 1978, as amended, and
according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of the county's disaster grant accounting system and contracting
policies and procedures, a judgmental sample of project expenditures, interviews of county, grantee,
and FEMA personnel, and other procedures considered necessary under the circumstances.




 Federal regulations in effect at the time of the disaster set the large project threshold at $54,100
                                     RECOMMENDATION

We recommend that the Director of the Florida Long Term Recovery Office, in conjunction with the
grantee, disallow the $336,786 of unsupported costs.

             DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

The audit results were discussed with grantee, county officials and FEMA officials on February 1,
2007. County officials concurred with the findings.

Please advise me by January 25,2008, of the actions taken to implement the recommendation
contained in this report. Should you have any questions, please contact me at
(404) 832-6702. Key contributors to this assignment were Salvador Maldonado-Avila and Vilmarie
Serrano.




cc: DHS Audit Liaison
    FEMA Audit Liaison
    Deputy Director, GCRO
    Chief Financial Director, Gulf Coast Recovery Office
    Regional Director, FEMA Region IV
    Public Assistance Office, FEMA Florida Transitional Recovery Office
    Chief of Staff, FEMA Florida TRO
    Florida State Coordinating Officer
    Florida Legislative Auditor
    Director of Finance, Gulf Coast Recovery Office
                                         RESULTS OF AUDIT

The county's accounting records did not accurately reflect all costs claimed and reimbursed for
debris removal activities. In addition, the county's claim contained $336,786 (FEMA share
$303,107) of unsupported debris removal charges.

A. Accounting Records. According to 44 CFR 9 13.20(b), grant recipients are required to maintain
   records that adequately identify the source and application of funds provided for financially-
   assisted activities. In September 2004, the county sustained damages from hurricanes Frances
   and Jeanne. The county established expenditure accounts within its accounting system to
   separately record project costs for the two declared disasters. However, the county claimed and
   recorded $14.2 million of Hurricane Jeanne contracted debris removal costs in accounts
   pertaining to Hurricane Frances. As a result, the accuracy of the county's claim for Hurricane
   Jeanne, the disaster included in the scope of this audit, could not be readily verified.

   The misclassification of expenditures occurred because the county misinterpreted FEMA's
   disaster-specific guidance regarding the accounting for debris that was not easily distinguishable
   between the two disaster events. Since the misclassification was not the result of a deficient
   grant accounting system, this finding contains no recommendation.

B. Unsupported Debris Removal Charges. According to 44 CFR 5 13.20, subgrantees are required
   to maintain supporting documentation for all charges to FEMA projects. The county claimed
   contractor costs totaling $4,355,179 under debris removal Projects 2390,2391, and 2399, but had
   documentation (i.e. invoices, cancelled checks, etc.) to support costs of only $4,018,393. The
   difference of $336,786 occurred because the county's claim was based on data contained in a
   load ticket database that had not been adjusted for credits and erroneous charges made by the
   debris removal contractor. The unsupported charges and related projects are, as follows:

                                                             Cubic Yards
                                       Amount       Cubic    Supported by
   Project               Amount      InvoicedBy     Yards     Contractor    Unsupported   Questioned
   Number     Activity   Claimed     Contractors   Claimed    Payments      Cubic Yards     Cost
             Pickup and
    2390     Transport $3,218,472     $3,069,209   257,478     245,537        11,941       $149,263
                Final
    2391      Disposal     492,004       486,770    66,487      65,780           707          5,234
                Final
    2399      Disposal     644,703       462,414   130,243      93,417        36,826        182,289
    Total               $4,355,179    $4,018,393   454,208     404,734        49,474       $336,786
                                                    Exhibit



           Hillsborough County, Florida
            FEMA Disaster 1561 -DR-FL
Schedule of Awarded, Claimed and Questioned Costs
     September 24,2004 to November 9,2006
